                                                                            Dr. Mary Welsh Byrd, Program Director
                                                                            Department of State & Federal Funded Projects
                                                                            20 Cook Street – Room 10
                                                                            San Francisco, CA 94118-3311
                                                                            TEL. (415)750-8555
                                                                            FAX (415)750-8553
                                                                            mbyrd@muse.sfusd.k12.ca.us




                  SAN FRANCISCO UNIFIED SCHOOL DISTRICT




                  March 24, 2000

                  Gloria Pilotti
                  Regional Inspector General for Audit
                  U.S. Department of Education
                  Office of Inspector General
                  801 I Street, Room 219
                  Sacramento, CA 95814


                  Dear Ms. Pilotti:
                  We are responding to your letter of March 14, 2000 and the issues raised in the attached
                  point sheets relative to the audit of the San Francisco Unified School District's over-
                  sight of Title I funds for services to private school students:

                                   1. Finding Title: The District Needs to Ensure that Tile I
                                      Services Are Provided for Eligible Students Who Attend
                                      Private Schools Located Outside the District's Boundaries
                                      This issue had never been brought to the District's attention throughout
                                      various external audits and Consolidated Compliance Reviews conducted
                                      by the California Department of Education, until this particular audit. The issue
                                      has been discussed in a recent video presentation by the U.S. Office
                                      of Education and representatives of the CDE. It is to be further discussed
                                      by Hannah Walker, Assistant Superintendent/Director, Specialized
                                      Programs Division, CDE. This issue is evidently one which has recently
                                      arisen in several districts in California. CDE is to give guidance relative to
                                      policies and procedures to be used in implementing Title 34 of the Code
                                      of Federal Regulations(CFR), Section 200. 10. The SFUSD's written
                                      policy and procedures should be developed by the Program Director of
                                      the Title I Nonpublic Program, reviewed by the SFUSD's attorney and
                                      CDE, and presented for approval by the San Francisco Board of
                                      Education by June 27, 2000, the last Board Meeting of the school year,
                                      so as to be implemented for the 2000-2001 school year.




                                                                 an equal opportunity employer
13-2992 300 Rm. 9-93
OIG Response: Pilott continued(3-24-00)          2.


             2. Finding Title: The District Needs to Improve Its Financial
                Management Controls over Budgets, Expenditures, and
                Equipment Inventory.
                 Budget Controls
                The audit point sheet very accurately describes the current conditions in
                the SFUSD relative to the reconciliation of the SFFP Department's
                expenditures with the District's records. It is a systemic problem,
                which is currently being corrected with both new hardware and
                software. Because of the installation of these new systems, the
                budgets and expenditures are months behind in being processed;
                therefore, there is no agreement or reconciliation of figures. The SFFPD
                relies on its own figures and considers them to be more accurate than the
                District's records because they are current. The Program Director has
                directed her concerns to the Chief Fiscal Officer and others in the District
                relative to this matter (see attachment addressed to Bill Coleman).
                However, until the “Monthly Budget Status Report” is brought up to date
                and reflects accuracy, she will reconcile the department's records with the
                District’s accounting records on a quarterly basis, in September,
                December, March, and June.

                Source Documentation
                In response to the issues raised here, I am enclosing the memorandum to
                the Program Director from the TSA (Teacher on Special Assignment)
                who actually implements the Title I Nonpublic Program. There are
                some corrections to the issues raised and explanations, since there were
                no overpayments or underpayments made to consultants in this program.
                The Department will implement the use of a better form for the
                submission of proof of work done for payment. In addition, because of
                nature of the program, specific dates that do vary, will not be listed but
                rather a total number of days within a specified time period will be used
                in submitting the K form for consultants. [See OIG Note below]

                Internal Controls Over Equipment Inventory
                While the Department of State and Federal Funded Programs has
                maintained the inventory for the public schools, the Title I Nonpublic
                Program, as well as the Title I Neglected and Delinquent Programs, and
                the Title VI Innovative Programs, all of which are implemented through
                this department have been maintaining their own records and inventory.
                Beginning immediately, I am directing that all of these programs provide
                inventories to the TAS for Technology, who is responsible for maintain
                ing the department's inventory. All equipment and materials will therefore
                be kept in one location.(See attached memorandum dated 3-24-00) In
                addition, the department will develop a form which indicates a change of
                location, when equipment is moved from one location to another site.
                This form will be completed and operative before the close of school
                year.

                [OIG Note: The statement regarding overpayment and underpayment relates
                to a preliminary finding not included in the final report. The District provided
                data confirming that amounts paid to the consultants were appropriate.]
OIG Response: Pilottis continued(3-24-00)              3.
                    In the matter of providing a suitable label for the equipment, I am
                    requesting that we continue to ingrave new equipment and to continue to
                    search for some type of label that is better (less easy to be removed) than
                    the adhesive label that we are currently using.
We trust that these responses, clarifications, and attachments have served as a positive
response to the issues raised thus far by the Title I Nonpublic Audit that has been under-
taken by your office since August, 1999. If there are any further questions, please do not
hesitate to contact me at (415) 750-8555.

Attachments
Very Truly yours,




cc: Linda Davis
    Steve Hudgens
